                  The Business Systems Development
                  Organization’s Effective Process for
                    Developing Information Systems
                Requirements Can Be Made More Efficient
                by Tracking and Analyzing Related Costs

                                     May 2005

                       Reference Number: 2005-20-061




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                            May 9, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Business Systems Development
                             Organization’s Effective Process for Developing Information
                             Systems Requirements Can Be Made More Efficient by Tracking
                             and Analyzing Related Costs (Audit # 200420040)


      This report presents the results of our review of the Business Systems Development
      (BSD) organization’s efforts to effectively develop and manage the requirements for
      information services. This review is part of our Fiscal Year (FY) 2005 Audit Plan for
      reviews to assess the adequacy of the Internal Revenue Service’s (IRS) information
      technology.
      In summary, the BSD organization receives information services requests from the IRS’
      business operating divisions and functional organizations. These requests are usually
      received through the Request for Information Services (RIS) process. The RIS process
      provides a common framework to document, control, monitor, and track requirement
      changes to IRS computer systems and requests for information technology support.
      Requirements management is the process that controls and documents all project
      requirements. It involves establishing the requirements, controlling all subsequent
      requirements changes, and maintaining agreement with the customers and providers of
      the requested products or services. This process ensures requirements are
      unambiguous, traceable, verifiable, documented, and controlled. An effective
      requirements development and management process can prevent potential problems
      before they become serious problems resulting in schedule delays and additional costs.
      Our reviews of the RIS process and a sample of RISs submitted during FY 2004
      identified the use of open and ongoing communications between the BSD organization
      and its IRS customers that enable them to sufficiently define RIS requirements.
      Customers submitting requirements for RISs identify the business developments or
                                                       2

changes they want to install. The BSD organization assists by determining the
information system requirements to meet the customers’ needs.
We analyzed the 1,183 original RISs submitted to the BSD organization during
FY 2004. Overall, 98 percent of the RISs included appropriate requirements when the
customer submitted them to the BSD organization. Subsequent to the RIS submission
and approval, 13 percent needed further requirements development through a RIS
amendment. These amendments modified the existing requirements or added
additional requirements as part of the RIS development process. In our opinion, the
amendment activity is relatively low and indicates the RIS process and the
communications between the BSD organization and customers work to adequately
develop the requirements.
Although the BSD organization and its customers work to adequately develop the
requirements for information systems services, we found the BSD organization does not
have the functionality in the cost accounting system or the RIS Tracking and Reporting
System (RTRS)1 to compare the estimated and actual staff days for time spent
developing, tracking, and testing requirements. The Internal Revenue Manual requires
the actual results and performance of software development projects be tracked against
the software development plan. The Carnegie Mellon Software Engineering
Institute’s (SEI)2 Capability Maturity Model Integration (CMMI)3 states the project
planning process should be monitored and controlled against the plan to include specific
measures to address the estimated and actual effort and cost. Project planning should
include the ability to reconcile the project plan to reflect available and estimated
resources.
Without measures to compare the estimated costs to the actual costs for requirements
development, the BSD organization may not be able to effectively assign resources to
support the future use and improvement of the organization’s processes and process
assets. To ensure the overall success of the requirements management process, we
recommended the Chief Information Officer (CIO) have the BSD organization develop
policies and procedures for requirements management and measurement.
Management’s Response: The CIO agreed that the BSD organization can further
improve its efficiency by tracking costs for requirements development and management.
Since the audit fieldwork was completed, the CIO formed the Unified Work Request
(UWR) initiative under the direction of the Associate CIO of Enterprise Services. The
UWR Working Group was formed on March 17, 2005. It is tasked to develop a
comprehensive process or set of processes, procedures, and system changes to be
implemented enterprise-wide by combining or modifying the functionality of the existing
work requests systems into a unified entity that will enable effective and efficient


1
  The RTRS is the authoritative, centralized database and repository of the RIS process.
2
  The SEI is a Federally funded research and development center sponsored by the Department of Defense. Its core
purpose is to help others make measured improvements in their software engineering capabilities.
3
  The purpose of the CMMI is to provide guidance for improving an organization’s processes and the ability to
manage the development, acquisition, and maintenance of products or services.
                                           3

prioritization and coordination of all work requested of the Modernization and
Information Technology Services (MITS) organization. Further, the BSD organization
will work with the MITS Management Information and Cost Analysis System project to
correctly identify and enumerate all cost areas in the BSD organization. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                      The Business Systems Development Organization’s
             Effective Process for Developing Information Systems Requirements
             Can Be Made More Efficient by Tracking and Analyzing Related Costs




                                                  Table of Contents


Background ............................................................................................... Page 1
The Business Systems Development Organization Has an Effective
Process to Develop Requirements for Information Services Requests ..... Page 2
The Business Systems Development Organization Can Improve
Its Efficiency by Tracking Costs for Requirements
Development and Management ................................................................ Page 5
         Recommendation 1: .........................................................................Page 7

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Staff Day Estimates for the Request for Information
Services Sample ....................................................................................... Page 13
Appendix V – Management’s Response to the Draft Report ..................... Page 15
                  The Business Systems Development Organization’s
         Effective Process for Developing Information Systems Requirements
         Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                One of the Internal Revenue Service’s (IRS) major
Background
                                strategies contained in the IRS Strategic Plan for Fiscal
                                Years (FY) 2000-2005 is to provide high-quality, efficient,
                                and responsive information services. This strategy plans
                                continuing support for current operations with emphasis on
                                increased quality and reduced costs of routine operations
                                and continued support to the Business Systems
                                Modernization program. The Business Systems
                                Development (BSD) organization defines, builds, tests,
                                delivers, and maintains the IRS’ information systems. The
                                BSD organization’s work supports the Modernization and
                                Information Technology Services (MITS) organization
                                production environment in achieving the IRS’ business
                                vision and objectives.
                                The BSD organization is one of the largest functions in the
                                MITS organization in terms of both size and resources. For
                                FY 2004, the BSD organization had a budget of
                                $336 million and 1,916 Full-Time Equivalent (FTE)1
                                positions. The BSD organization’s budget for FY 2005 is
                                $373 million and 2,175 FTE positions. The BSD
                                organization accomplishes its work with eight subordinate
                                organizations:
                                •   Product Assurance Division.
                                •   Program Management and Release Readiness Office.
                                •   Compliance Systems Division.
                                •   Corporate Data and Systems Management Division.
                                •   Internal Management Systems Division.
                                •   Customer Applications Development Division.
                                •   Filing Systems Division.
                                •   Client Services Division.
                                The BSD organization receives information services
                                requests from the IRS’ business operating divisions and

                                1
                                 A measure of labor hours in which 1 FTE is equal to 8 hours
                                multiplied by the number of compensable days in a particular fiscal
                                year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005,
                                1 FTE is equal to 2,088 staff hours.
                                                                                             Page 1
                    The Business Systems Development Organization’s
           Effective Process for Developing Information Systems Requirements
           Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                  functional organizations. These requests are usually
                                  received through the Request for Information Services (RIS)
                                  process. A RIS is a formal memorandum requesting
                                  BSD organization support for changes to current or planned
                                  programming, corporate hardware, commercial off-the-shelf
                                  software applications, system testing, and other MITS
                                  organization activities used in processing tax information.
                                  The RIS process provides a common framework to
                                  document, control, monitor, and track requirement changes
                                  to IRS computer systems and requests for information
                                  technology support.
                                  Requirements management is the process that controls and
                                  documents all project requirements. It involves establishing
                                  the requirements, controlling all subsequent requirements
                                  changes, and maintaining agreement with the customers and
                                  providers of the requested products or services. This
                                  process ensures requirements are unambiguous, traceable,
                                  verifiable, documented, and controlled. An effective
                                  requirements development and management process can
                                  prevent potential problems before they become serious
                                  problems resulting in schedule delays and additional costs.
                                  This review was performed at the BSD organization offices
                                  in New Carrollton, Maryland, during the period
                                  October 2004 through February 2005. The audit was
                                  conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The RIS process is initiated when a customer prepares and
The Business Systems
                                  submits a Placeholder2 to the BSD organization to request
Development Organization Has
                                  services or support. The primary BSD organization contact
an Effective Process to Develop
                                  for the Placeholder initiates precoordination meetings with
Requirements for Information
                                  the customers and appropriate BSD organization personnel.
Services Requests
                                  The Placeholder precoordination participants meet to get an
                                  early indication of the BSD organization’s ability to provide
                                  the requested support and/or service requirements. The



                                  2
                                    A Placeholder is a preliminary notification to the BSD organization
                                  that a customer may request work or support.
                                                                                                  Page 2
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs

                       meeting results help the customer to determine whether to
                       submit a RIS.
                       If the Placeholder precoordination meeting results indicate
                       the BSD organization has the ability to provide the type of
                       support and/or services requested, the BSD organization and
                       the customer work together to define the initial RIS
                       requirements. Once the initial requirements are defined, the
                       customer submits a RIS. After the RIS is received, the
                       primary BSD organization analyst must contact the
                       customer to continue coordination in order to review,
                       analyze, and agree upon the specific requirements outlined
                       in the RIS. The objective of RIS coordination is to
                       determine whether the agreed upon requirements can be
                       provided and to address any requirements/issues not
                       resolved in Placeholder precoordination.
                       When all organizations involved in developing the RIS
                       understand the requirements and agree to do the work, the
                       BSD organization contact prepares a formal RIS response
                       documenting the work to be performed. An amended RIS is
                       the vehicle to add or modify requirements to an existing
                       RIS. The work requested in an amended RIS must be
                       integral to the work requested in the original RIS.
                       RIS amendments must be submitted through the regular
                       RIS process.
                       In most cases, communications between the BSD
                       organization and the customer do not necessarily end after
                       the RIS response is issued. Constant and ongoing
                       communications usually take place through the
                       implementation of the RIS and sometimes beyond,
                       depending on the scope and complexity of the requested
                       work. Based on discussions and folder reviews, we found
                       the RIS process and the communications between the BSD
                       organization personnel and customers were an adequate
                       means to develop the requirements.
                       The BSD organization works effectively with its
                       customers in defining RIS requirements
                       Our reviews of the RIS process and a sample of RISs
                       submitted during FY 2004 identified the use of open and
                       ongoing communications between the BSD organization

                                                                            Page 3
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs

                       and its IRS customers that enable them to sufficiently define
                       RIS requirements. Customers submitting requirements for
                       RISs identify the business developments or changes they
                       want to install. The BSD organization assists by
                       determining the information system requirements to meet
                       the customers’ needs.
                       We analyzed the RISs submitted during FY 2004. During
                       this period, the BSD organization received 1,183 original
                       RIS submissions.
                           •   The IRS customers subsequently withdrew 66 RISs
                               from further work because they decided the work
                               was no longer necessary.
                           •   The BSD organization returned 53 RISs to the
                               customers. Of these, 19 (36 percent) were returned
                               for requirements related reasons (e.g., insufficient
                               requirements, requirements were already provided
                               by another system, etc.). The remaining
                               34 (64 percent) were returned due to an absence of
                               resources.
                       Overall, 98 percent3 of the RISs included appropriate
                       requirements when the customer submitted them to the BSD
                       organization.
                       Subsequent to the RIS submission, 137 (13 percent) of the
                       1,064 approved RISs needed further requirements
                       development through a RIS amendment. These
                       amendments modified the existing requirements or added
                       additional requirements as part of the RIS development
                       process. In our opinion, the amendment activity is relatively
                       low and indicates the RIS process and the communications
                       between the BSD organization personnel and customers
                       work to adequately develop the requirements.




                       3
                         Calculated as 19 returned for requirements issues / 1,083 (1,183
                       original RISs – 66 withdrawn by customer – 34 returned for resource
                       issues) = 2 percent.
                                                                                      Page 4
                     The Business Systems Development Organization’s
            Effective Process for Developing Information Systems Requirements
            Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                   The BSD organization does not have the functionality in the
The Business Systems
                                   cost accounting system or the RIS Tracking and Reporting
Development Organization Can
                                   System (RTRS)4 to compare the estimated and actual staff
Improve Its Efficiency by
                                   days for time spent developing, tracking, and testing
Tracking Costs for Requirements
                                   requirements. We reviewed a sample of 20 RISs affecting
Development and Management
                                   4 projects (16 RISs for Compliance Systems and 4 RISs for
                                   Corporate Data and Systems Management Divisions) and
                                   found the resources estimated to complete the requests
                                   ranged from 5 to 3,276 staff days. Appendix IV provides
                                   the estimated staff days for each of the RISs sampled.
                                   The Internal Revenue Manual (IRM) requires the actual
                                   results and performance of software development projects
                                   be tracked against the software development plan. The
                                   Carnegie Mellon Software Engineering Institute’s (SEI)5
                                   Capability Maturity Model Integration (CMMI)6 states the
                                   project planning process should be monitored and controlled
                                   against the plan to include specific measures to address the
                                   estimated and actual effort and cost. Project planning
                                   should include the ability to reconcile the project plan to
                                   reflect available and estimated resources. Table 1 presents
                                   the IRM and the CMMI measurement and analysis criteria
                                   for software development projects.




                                   4
                                     The RTRS is the authoritative, centralized database and repository of
                                   the RIS process.
                                   5
                                     The SEI is a Federally funded research and development center
                                   sponsored by the Department of Defense. Its core purpose is to help
                                   others make measured improvements in their software engineering
                                   capabilities.
                                   6
                                     The purpose of the CMMI is to provide guidance for improving an
                                   organization’s processes and the ability to manage the development,
                                   acquisition, and maintenance of products or services.
                                                                                                    Page 5
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs

                       Table 1: Project Requirement and Measurement Criteria
                                   IRM                                  CMMI
                       Software development projects     The requirements management
                       should be tracked and have        process includes monitoring and
                       oversight to provide adequate     controlling the requirements against
                       visibility into actual progress   the plan for performing the process
                       so management can take            and taking appropriate corrective
                       effective actions when the        action (i.e., measures used in
                       project’s performance deviates    monitoring and controlling changes).
                       from the plan.
                       The actual results and            Project planning includes monitoring
                       performance of software           and controlling the actual values
                       development projects shall be     against the plan for performing the
                       tracked against the project       process (i.e., cost, effort, and
                       plan. When actual results and     schedule) and taking appropriate
                       performance significantly         corrective action.
                       deviate from the plan,
                       corrective actions shall be
                       taken and managed to closure.
                       Changes to project                An organization should collect work
                       commitments shall be agreed       products, measures, measurement
                       to by managers in affected        results, and improvement information
                       organizational units.             derived from planning and performing
                                                         the requirements management to
                                                         support the future use and
                                                         improvement of the organization’s
                                                         processes and process assets.

                       Source: The IRM and the CMMI.

                       In July 2004, the SEI reported the BSD organization did not
                       refine, monitor, and adjust the estimated project measures
                       (e.g., staff days) on a regular basis. It recommended the
                       BSD organization build a historical measurement database.
                       In response to this report, the BSD organization developed a
                       process improvement plan which included the Measurement
                       and Analysis Process Action Team (PAT). As of
                       December 2004, the BSD organization had not issued any
                       policies or procedures as a result of the Measurement and
                       Analysis PAT.
                       Without measures to compare the estimated costs to the
                       actual costs for requirements development, the BSD
                       organization may not be able to effectively assign resources


                                                                                       Page 6
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs

                       to support the future use and improvement of the
                       organization’s processes and process assets.

                       Recommendation

                       1. To ensure the overall success of the requirements
                          management process, the Chief Information
                          Officer (CIO) should have the BSD organization
                          develop policies and procedures for requirements
                          management and measurement. The Measurement and
                          Analysis PAT should include measures to monitor the
                          actual costs of the requirements development, tracking,
                          and testing process against the estimates of cost, effort,
                          and schedule. The PAT can accomplish this by:
                          •   Identifying, from current processes, any existing
                              data that could be used to compare actual costs
                              against estimated costs. For example, the RTRS
                              currently has the estimated staff days for the
                              development of the requirements.
                          •   Identifying the measures which need data
                              accumulation not currently available.
                          •   Specifying how to collect and store the data for each
                              required measure.
                          •   Creating automated data collection mechanisms, if
                              not currently available, and providing training and
                              guidance.
                          •   Determining how to measure, analyze, report, and
                              use the data.
                       Management’s Response: The CIO agreed that the BSD
                       organization can further improve its efficiency by tracking
                       costs for requirements development and management.
                       Since the audit fieldwork was completed, the CIO formed
                       the Unified Work Request (UWR) initiative under the
                       direction of the Associate CIO of Enterprise Services. The
                       UWR Working Group was formed March 17, 2005. It is
                       tasked to develop a comprehensive process or set of
                       processes, procedures, and system changes to be
                       implemented enterprise-wide by combining or modifying

                                                                              Page 7
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs

                       the functionality of the existing RIS RTRS, Change Request
                       Tracking System, and other work requests systems or
                       processes into a unified entity that will enable effective and
                       efficient prioritization and coordination of all work
                       requested of the MITS organization. This is envisioned to
                       be a multi-phased process. Further, the BSD organization
                       will work with the MITS Management Information and Cost
                       Analysis System project to correctly identify and enumerate
                       all cost areas in the BSD organization.




                                                                              Page 8
                     The Business Systems Development Organization’s
            Effective Process for Developing Information Systems Requirements
            Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Business Systems Development (BSD)
organization’s efforts to effectively develop and manage the requirements for information
services. To accomplish this objective, we:
I.    Evaluated the BSD organization’s overall policy for developing and managing
      requirements and the controls provided by the Internal Revenue Manual, the Enterprise
      Life Cycle-Lite (ELC-Lite),1 and the Carnegie Mellon Software Engineering Institute’s
      (SEI)2 Capability Maturity Model Integration (CMMI).3
II.   Determined the assignment of responsibilities in the BSD organization for requirements
      development and management processes
      A. Interviewed BSD organization executive, division, and branch management to
         determine their roles and responsibilities for requirements development and
         management.
      B. Determined the potential impact on requirements development and management in the
         BSD organization with the imminent establishment of the Enterprise Services
         organization.
      C. Analyzed internal BSD organization reviews of project activities regarding
         requirements development and management.
III. Judgmentally selected 4 projects and 20 Requests for Information Services (RIS) submitted
     during Fiscal Year (FY) 2004 from the Compliance Systems (2 projects and 16 RISs) and
     Corporate Data and Systems Management (2 projects and 4 RISs) Divisions. This sample
     was selected from the 33 development and maintenance projects implemented by
     August 2004 and selected for testing by Product Assurance. Our sample was used to
     evaluate the process to develop the requirements prior to the RIS approval and manage the
     requirements after a RIS is approved. We used a judgmental sample because a precise
     projection of sample results over a population was not required.
      A. Interviewed division management and analysts to determine how the requirements were
         developed, tracked, and monitored prior and subsequent to the RIS approval.

1
  The ELC-Lite establishes a methodology for business and technical processes for all nonmodernization and
small-to-medium size projects.
2
  The SEI is a Federally funded research and development center sponsored by the Department of Defense. Its core
purpose is to help others make measured improvements in their software engineering capabilities.
3
  The purpose of CMMI is to provide guidance for improving an organization’s processes and the ability to manage
the development, acquisition, and maintenance of products or services.
                                                                                                        Page 9
                  The Business Systems Development Organization’s
         Effective Process for Developing Information Systems Requirements
         Can Be Made More Efficient by Tracking and Analyzing Related Costs

     B. Reviewed project folders for the selected projects to determine how communications
        between the developer/management and the customer were documented and
        development of the requirements were tracked.
IV. Analyzed amended and returned RISs from the 1,183 RISs the BSD organization managed
    during FY 2004 to determine the reason for the amendment or return.




                                                                                      Page 10
                  The Business Systems Development Organization’s
         Effective Process for Developing Information Systems Requirements
         Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Tina Wong, Senior Auditor
Suzanne Noland, Auditor
Linda Screws, Auditor




                                                                                         Page 11
                  The Business Systems Development Organization’s
         Effective Process for Developing Information Systems Requirements
         Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Business Systems Development OS:CIO:I:B
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Director, Business Systems Development OS:CIO:I:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                     Page 12
                   The Business Systems Development Organization’s
          Effective Process for Developing Information Systems Requirements
          Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                                                                    Appendix IV


        Staff Day Estimates for the Request for Information Services Sample

Table 1 lists the staff day estimates for each Request for Information Services (RIS) included in
our sample. The RISs are grouped by their related Division and information systems program.


                           Table 1: Staff Day Estimates for Sampled RISs
     Corporate Data and Systems Management Division
     Notice Review Processing System (NRPS) - The NRPS extracts notices for quality
     review against current data prior to mailing to the taxpayer. It provides notice data,
     which is to be reviewed by tax examiners on-line.
     RIS Number                                           Estimated Staff Days

     OPR30007A00
                                                                   3,276
     WIC40005A00
                                                                    362
     WIC40014A00
                                                               324
     NRPS and On-Line Notice Review (OLNR) - The OLNR application gives tax
     examiners the ability to review and edit notices on-line.


     WSP30172A00                                                    123




                                                                                           Page 13
               The Business Systems Development Organization’s
      Effective Process for Developing Information Systems Requirements
      Can Be Made More Efficient by Tracking and Analyzing Related Costs


 Compliance Division
 Integrated Collection System (ICS) - The ICS provides workload management, case
 assignment/tracking, inventory control, electronic mail, case analysis tools, and
 management information systems capabilities to support the collection fieldwork.
 RIS Number                                                 Estimated Staff Days
 COL30129A00                                                          2,731
 COL30111A00                                                            10
 COL30018A00                                                            76
 COL30083A00                                                            28
 COL10071A00                                                           107
 COL20114A00                                                           191
 SCS10214A00                                                          1,713
 COL30099A00                                                            5
 WCA10100A00                                                           235
 COL30100A01                                                           403
 SCA30017A00                                                            10
 COL30039A00                                                            46
 COL20124A00                                                            45
 COL10047A00                                                           169
 COL20022A00                                                            60
 Refund Intercept Request - This process intercepts erroneous or questionable refunds
 that otherwise would be mailed or electronically deposited to taxpayers.

 OPR20004A00                                                          1,470
Source: Treasury Inspector General for Tax Administration analyses of sampled RISs.




                                                                                      Page 14
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs

                                                               Appendix V


          Management’s Response to the Draft Report




                                                                     Page 15
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs




                                                                     Page 16
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs




                                                                     Page 17
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs




                                                                     Page 18
         The Business Systems Development Organization’s
Effective Process for Developing Information Systems Requirements
Can Be Made More Efficient by Tracking and Analyzing Related Costs




                                                                     Page 19
